No. 20A4
CAPITAL CASE

In the Supreme Court of the United States
UNITED STATES, ET AL.,
Applicants,
v.
WESLEY IRA PURKEY,
Respondent,
CERTIFICATE OF SERVICE
I, Rusty D. Crandell, a member of the Supreme Court Bar, hereby certify that the
attached Motion for Leave to File as Amicus Curiae in Support of Applicants was
electronically served via e-mail, pursuant to the Court’s April 15, 2020 order, to the
following counsel on this 11th day of July, 2020:
Jeffrey B. Wall
SupremeCtBriefs@USDOJ.gov
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
Alan E. Schoenfeld
alan.schoenfeld@wilmerhale.com
Stephanie Simon
stephanie.simon@wilmerhale.com
Wilmer Cutler Pickering
Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
212-230-8800

1

Rebecca E. Woodman
rewlaw@outlook.com
Attorney at Law, L.C.
1263 W. 72nd Terrace
Kansas City, MO 64114
(785) 979-3672
Michelle M. Law
michelle_law@fd.org
Assistant Federal Public Defender
Western District of Missouri
901 St. Louis Street, Suite 801
Springfield, MO 65806
(417) 873-9022

/s/ Rusty D. Crandell
R USTY D. C RANDELL
Deputy Solicitor General
Counsel of Record
O FFICE OF THE A RIZONA
A TTORNEY G ENERAL
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-8540
Rusty.Crandell@azag.gov

.

Counsel for the State of Arizona

2

